      Department of Homeland Security





            Implementation and Coordination
              of TSA’s Secure Flight Program

                      (Redacted)




OIG-12-94                                      July 2012

                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1 


   Background ........................................................................................................................ 2 


   Results of Review .............................................................................................................. 20 


              Secure Flight Relies on Passenger- and Aircraft Operator-Submitted Data and
                Aircraft Operator Compliance To Conduct Watch List Matching...................... 21

              Recommendations ............................................................................................... 27 

              Management Comments and OIG Analysis ......................................................... 28 

              Recommendation ................................................................................................. 35 

              Management Comments and OIG Analysis ......................................................... 35 


              Secure Flight Relies on the Availability of the DHS Router, But Some Disruptions
                Occur………………………………………………………………………………………………..……………36

              Secure Flight Has Full Site Redundancy and Conducts System Testing To Ensure

                Availability…………………………………………………………………………………………….….….. 39


              Secure Flight Has Developed Safeguards To Protect Personal Data and Watch List

                Records…………………………………………………………………………………………………..……. 41


              Secure Flight Should Prioritize Its Mission, While Developing and Implementing
                Initiatives…................................................................................................. ....... 43 

              Recommendation………………………………………………………………………..…………………...48

              Management Comments and OIG Analysis……………………………………………….……… 48


              Conclusion............................................................................................................. 50





www.oig.dhs.gov                                                                                                                 OIG-12-94
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendixes
           Appendix A:   Objectives, Scope, and Methodology ............................................ 51
           Appendix B:   Recommendations......................................................................... 53
           Appendix C:   Management Comments to the Draft Report ............................... 54
           Appendix D:   Secure Flight Passenger Prescreening Process.............................. 59
           Appendix E:   Major Contributors to This Report ................................................ 60
           Appendix F:   Report Distribution ........................................................................ 61

   Abbreviations
           AIM            Airline Implementation Manager
           BPPR           boarding pass printing result
           CBP            U.S. Customs and Border Protection
           CSA            Customer Service Agent
           DHS            Department of Homeland Security
           FAA            Federal Aviation Administration
           FBI            Federal Bureau of Investigation
           NCTC           National Counterterrorism Center
           OI             Office of Intelligence
           OIG            Office of Inspector General
           OIT            Office of Information and Technology
           SFA            Secure Flight Analyst
           SFPD           Secure Flight Passenger Data
           SOC            Secure Flight Operations Center
           TIDE           Terrorist Identities Datamart Environment
           TRIP           Traveler Redress Inquiry Program
           TSA            Transportation Security Administration
           TSC            Terrorist Screening Center
           TSDB           Terrorist Screening Database
           TTAC           Transportation Threat Assessment and Credentialing
           VID            verifying identity document
           WLS            Watch List Service



www.oig.dhs.gov                                                                                                 OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive Summary
   The Transportation Security Administration (TSA) is responsible for securing all modes of
   transportation, while also ensuring the freedom of movement for people and
   commerce. Through the Secure Flight program, TSA assumed from commercial aircraft
   operators the performance of passenger watch list matching for all covered flights into,
   out of, within, and over the United States. Aircraft operators are required to submit
   passenger data to Secure Flight prior to flight departure for advanced passenger
   prescreening.

   We reviewed the Secure Flight program to determine whether it is screening all
   appropriate persons and whether the processes for aircraft operators to submit
   passenger data and receive boarding pass instructions are timely and effective. We also
   reviewed how the program’s screening processes are tested for accuracy, prioritization,
   and timeliness, as well as how it is protecting personally identifiable and sensitive watch
   list information.

   Government and private sector partners recognize the Secure Flight program’s value, as
   it has provided more consistent passenger prescreening.

                                                           it has a defined system and

   processes to conduct watch list matching. To ensure that aircraft operators follow
   established procedures, Secure Flight monitors records and uses its discretion to
   forward issues for compliance investigation. Once Secure Flight assumed advanced
   passenger prescreening from aircraft operators, program focus shifted toward
   addressing emerging threats through multiple initiatives. We are making four
   recommendations to identify and eliminate system overrides, prioritize passenger data,
   standardize compliance, and improve communication and collaboration with partners.
   TSA concurred with Recommendations 1 and 3 and did not concur with
   Recommendations 2 and 4.




www.oig.dhs.gov                                 1                                       OIG-12-94
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   Background
   Following the terrorist attacks of September 11, 2001, the U.S. Government needed to
   strengthen the security of the Nation’s transportation systems, while also ensuring
   freedom of movement for people and commerce. The Aviation and Transportation
   Security Act of 2001 established TSA, within the Department of Transportation, and
   tasked it with securing all modes of transportation, including commercial aviation. 1 As a
   result of the Homeland Security Act of 2002, in March 2003, TSA was transferred to the
   Department of Homeland Security (DHS) to unify the Nation’s response to threats to the
   homeland.2

   TSA issued security directives requiring commercial aircraft operators to perform
   passenger prescreening using the U.S. Government’s consolidated terrorist watch list,
   known as the Terrorist Screening Database (TSDB), and matching passenger data against
   its No Fly and Selectee Lists. The No Fly List identifies individuals who are prohibited
   from boarding an aircraft or accessing the sterile area of a U.S. airport, while the
   Selectee List identifies individuals who are to receive additional physical screening prior
   to boarding an aircraft. Aircraft operators also conducted the same prescreening
   process for nontraveling persons authorized to enter sterile areas. 3

   In response to a recommendation in The 9/11 Commission Report, 4 the Intelligence
   Reform and Terrorism Prevention Act of 2004, as amended, directed TSA to develop an
   advanced passenger prescreening system and assume from aircraft operators the
   matching of passenger information to the No Fly and Selectee Lists, “utilizing all
   appropriate records in the consolidated and integrated terrorist watchlist maintained by
   the Federal Government.” 5 This act further required that TSA provide a redress process
   for misidentified individuals, limit the number of false positives, adopt policies
   establishing effective oversight, and implement security measures to protect the system


   1
     49 U.S.C. § 114 (a), (d).

   2
     6 U.S.C. § 203.

   3
     The “sterile area” is the portion of an airport that provides passengers access to boarding aircraft and to 

   which the access generally is controlled by TSA, an aircraft operator, or a foreign air carrier, through the

   screening of persons and property. 49 CFR § 1540.5.

   4
     The 9/11 Commission Report, p. 393. 

   5
     49 U.S.C. § 44903(j)(2)(C)(i).


www.oig.dhs.gov                                          2                                                 OIG-12-94
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   from unauthorized access and abuse. 6 When Congress transferred this responsibility to
   TSA, it required aircraft operators to supply TSA with passenger information needed to
   implement the advanced passenger prescreening system. Aircraft operators must also
   require third-party entities, such as travel agencies or booking websites, to provide
   passenger information to aircraft operators for submission to TSA.7

   TSA developed the Secure Flight program to address federalizing commercial aircraft
   operator passenger prescreening. On October 28, 2008, TSA issued its Secure Flight
   Final Rule to implement the Intelligence Reform and Terrorism Prevention Act of 2004
   mandate requiring that TSA assume the passenger prescreening for domestic flights and
   international flights to, from, and overflying the United States.8 Congress determined
   that advanced passenger prescreening should be a governmental function, and as a result,
   TSA, not commercial aircraft operators, bears the responsibility for conducting
   passenger prescreening.

           The U.S. Government’s Watchlisting System

           To fulfill this responsibility, TSA uses various Federal Government databases to
           prescreen commercial aircraft passengers. Derogatory information for known or
           suspected terrorists is maintained in the National Counterterrorism Center’s
           (NCTC) Terrorist Identities Datamart Environment (TIDE). Some information
           from this system and the Federal Bureau of Investigation (FBI) Automated Case
           Support system exports to the TSDB, which serves as the U.S. Government’s
           consolidated terrorist watch list. The term “export” describes the transfer of
           record information from one database to another. From the TSDB, records
           meeting specific inclusion criteria export to the No Fly and Selectee Lists.

           National Counterterrorism Center and the Terrorist Identities Datamart
           Environment

           Within the Office of the Director of National Intelligence, the NCTC was
           established by Executive Order 13354 and the Intelligence Reform and Terrorism

   6
     49 U.S.C. § 44903(j)(2)(C)(iii).

   7
     49 U.S.C. § 44903(j)(2)(C)(iv)(II). 

   8
     Secure Flight Program; Final Rule, 73 Fed. Reg. 64018-64066 (Oct. 28, 2008).


www.oig.dhs.gov                                         3                             OIG-12-94
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


            Prevention Act of 2004 to implement a 9/11 Commission recommendation calling
            for the NCTC to serve as a center for joint operational planning and joint
            intelligence. 9 This act further directed that the NCTC will be the central and
            shared knowledge bank on known or suspected terrorists and international terror
            groups, as well as their goals, strategies, capabilities, and networks of contacts and
            support. The NCTC is the primary U.S. Government organization for analyzing and
            integrating all intelligence possessed or acquired by the U.S. Government
            regarding terrorism and counterterrorism.10 However, the tasks of collecting and
            analyzing intelligence pertaining exclusively to domestic terrorists, and
            investigating counterterrorism within the United States, fall primarily under the
            purview of the FBI.11

            The NCTC is responsible for maintaining TIDE, the central repository of
            information on international terrorist identities. TIDE is a classified database
            that includes, to the extent permitted by law, all identifying and derogatory
            information that the U.S. Government possesses related to known or suspected
            terrorists. Homeland Security Presidential Directive-11 defines suspected
            terrorists as individuals known or reasonably suspected to be or have been
            engaged in conduct constituting, in preparation for, in aid of, or related to
            terrorism. Federal departments and agencies nominate individuals for inclusion
            in TIDE based on evaluations of intelligence and law enforcement terrorism
            information.

            TIDE is the authoritative database on international known or suspected terrorists
            that supports the U.S. Government’s watchlisting system. Homeland Security
            Presidential Directive-6 requires the NCTC to provide the Terrorist Screening
            Center (TSC) with access to all appropriate information or intelligence in its
            possession that the TSC needs to perform its functions. 12 As a result, the NCTC
            provides the TSC with a sensitive but unclassified subset of TIDE’s international

   9
     See The 9/11 Commission Report, p. 403. 

   10
      50 U.S.C. § 404o(d)(1).

   11
      See 28 U.S.C. §§ 509, 510, 533, and 534; 18 U.S.C. § 2332b(f); Executive Order 12333; 28 CFR § 0.85.

   12
      Homeland Security Presidential Directive-6, Integration and Use of Screening Information to Protect

   Against Terrorism, September 16, 2003. The responsibilities of the Terrorist Threat Integration Center in 

   this directive refer to responsibilities that have been assumed by the NCTC as of December 17, 2004, 

   pursuant to the Intelligence Reform and Terrorism Prevention Act of 2004. 


www.oig.dhs.gov                                          4                                                OIG-12-94
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           known or suspected terrorist identity information and access to TIDE Online, a
           read-only copy of the database.

           Terrorist Screening Center and the Terrorist Screening Database

           Homeland Security Presidential Directive-6 also instructed the U.S. Attorney
           General to establish an organization to consolidate the Government’s approach
           to terrorism screening and to provide for the appropriate and lawful use of
           terrorist information in screening processes. To implement the directive, the
           Attorney General—acting through the Director of the FBI, and in coordination
           with the Secretary of State, Secretary of Homeland Security, and the Director of
           Central Intelligence—created the TSC. 13

           The TSC maintains the TSDB, which is populated with “information about
           individuals known or appropriately suspected to be or have been engaged in
           conduct constituting, in preparation for, in aid of, or related to terrorism.…” 14 All
           TSDB information is sensitive but unclassified, so the broadest range of Federal,
           State, local, and international terrorist screening partners can benefit from using
           data derived from the TSDB and exported by the TSC.

           All TSDB information is derived from two sources. The only source for TSDB
           information on international terrorist identities is TIDE. The remaining
           information in the TSDB pertains solely to domestic terrorism information. This
           information is provided to the TSC directly from the FBI’s Automated Case Support
           system, which contains additional supporting information on domestic terrorists,
           beyond any biometric and biographic identifiers exported to the TSDB.

           There are minimum substantive derogatory and identifying criteria for inclusion
           in the TSDB. Although the NCTC accepts nominations that do not fully meet the
           TSDB derogatory and identifying criteria, it will enter those nominations into
           TIDE. The NCTC will not export that information to the TSC, however, unless
           both minimum criteria are met. After receiving TIDE information, the TSC

   13
      Memorandum of Understanding on the Integration and Use of Screening Information to Protect Against 

   Terrorism, September 16, 2003. 

   14
      Homeland Security Presidential Directive-6.


www.oig.dhs.gov                                      5                                             OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           reviews each nomination to ensure that it meets the U.S. Government’s
           watchlisting standards before creating a TSDB record.

           As part of its mission to maintain the U.S. Government’s consolidated terrorist
           watch list, the TSC also exports data to other screening systems, including TECS.
           Some of these systems have their own minimum criteria or restrictions for
           inclusion, which may differ from TSDB requirements. TECS, which is owned and
           primarily used by U.S. Customs and Border Protection (CBP), accepts nearly all
           records from the TSDB and is used to screen individuals at land, sea, and air
           ports of entry. Many other Federal law enforcement departments and agencies
           also use TECS as a screening and case management system. The No Fly and
           Selectee Lists, which are subsets of the TSDB, have the most stringent substantive
           derogatory and identifying criteria and are used to identify individuals who are
           prohibited from boarding an aircraft or accessing the sterile area of a U.S.
           airport, or who are to receive additional physical screening prior to boarding.

           No Fly and Selectee Lists

           The No Fly and Selectee Lists’ criteria were first established by the Homeland
           Security Council Deputies Committee on October 21, 2004. The Deputies
           Committee approved the addition of                         criterion to the No Fly
           List on February 8, 2008. Following the attempted terrorist attack on December
           25, 2009, the President directed that the No Fly and Selectee Lists’ criteria be
           reviewed and recommendations be made as to whether any adjustments were
           needed. The TSC Policy Board Working Group, in conjunction with the
           Information Sharing Access Interagency Policy Committee, recommended certain
           changes in the lists’ criteria and implementation guidance. Those
           recommendations were approved by the merged National Security
           Council/Homeland Security Council Deputies Committee on May 25, 2010.

           For inclusion on either the No Fly or Selectee List, minimum identifying criteria
           consist of a first name, last name, and full date of birth.





www.oig.dhs.gov                                 6                                        OIG-12-94
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security




           For inclusion on the No Fly List, an individual, regardless of citizenship, must
           represent—

                  •




www.oig.dhs.gov                                  7                                        OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


                  •





           The Selectee List is not a default list for individuals who do not qualify for
           inclusion on the No Fly List. Rather, the Selectee List includes persons,
           regardless of citizenship, in the TSDB who do not meet the criteria to be placed
           on the No Fly List and who are—

                  •




www.oig.dhs.gov                                8                                       OIG-12-94
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




           Secure Flight Program Implementation

           When TSA issued the Secure Flight final rule in October 2008, it was allowed to
           begin implementing commercial aircraft operator passenger prescreening.
           Under this final rule, TSA receives specific passenger and nontraveler data and
           conducts watch list matching against the No Fly and Selectee Lists. A
           nontraveling individual or nontraveler refers to an individual to whom a covered
           aircraft operator or covered airport operator seeks to issue authorization to
           enter the sterile area. TSA then transmits a boarding pass printing result (BPPR)
           back to aircraft operators. This program is intended to provide consistent and
           accurate passenger prescreening, while minimizing false matches and protecting
           personally identifiable information.

           Secure Flight Final Rule

           The Secure Flight final rule covers all flights conducted by U.S. aircraft operators
           that are required to have a full program under 49 CFR § 1544.101(a), 21 and all




   21
     49 CFR § 1544 requires certain aircraft operators to adopt and carry out a security program approved by
   TSA, including screening procedures for passenger and property, threat response, and screener
   qualifications. Aircraft operators required to have a full security program under 49 CFR § 1544.101(a) are
   scheduled passenger or public charter passenger operations with an aircraft having a passenger seating

www.oig.dhs.gov                                        9                                              OIG-12-94
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           flights arriving in or departing from the United States or overflying the
           continental United States as operated by foreign aircraft operators that are
           required to have a security program under 49 CFR § 1546.101(a) or (b). 22 These
           aircraft operators generally are the passenger airlines that offer scheduled and
           public charter flights from commercial airports.

           With implementing the Secure Flight program, TSA requires covered aircraft
           operators to collect from passengers and transmit to TSA Secure Flight Passenger
           Data (SFPD). SFPD consists of a passenger’s full name, gender, date of birth, and,
           when applicable, a Redress Number or Known Traveler Number. A Redress
           Number is a unique number that DHS assigns to individuals who use the DHS
           Traveler Redress Inquiry Program (TRIP). DHS TRIP provides a single portal for
           travelers to seek redress for adverse screening experiences and to resolve
           possible watch list misidentification issues. A Known Traveler Number is a
           unique number assigned to “known travelers” for whom the Federal
           Government has already conducted a threat assessment and has determined do
           not pose a security threat.

           According to the final rule, aircraft operators are required to make a privacy
           notice available on public websites and self-serve kiosks before collecting any
           personally identifiable information from passengers or nontravelers. 23

           The Secure Flight final rule also stipulates that aircraft operators must transmit
           available SFPD to TSA approximately 72 hours prior to the scheduled flight
           departure time. For reservations created within 72 hours of flight departure,
           aircraft operators must submit SFPD as soon as it becomes available. Secure
           Flight then matches the data provided against the No Fly and Selectee Lists. As

   configuration of 61 or more seats, or 60 or fewer seats when passengers are enplaned from or deplaned
   into a sterile area.
   22
      49 CFR § 1546 applies to foreign air carriers permitted to operate in the United States and requires
   these carriers to adopt and carry out a security program approved by TSA, including the screening of
   passengers and property, and other requirements. Aircraft operators required to have a security program
   under 49 CFR § 1546.101(a) or (b) include (1) aircraft having a passenger seating configuration of 61 or
   more seats, or (2) operations that provide deplaned passengers access to a sterile area, or enplane
   passengers from a sterile area, when that access is not controlled by an aircraft operator using a security
   program under 49 CFR § 1544 or a foreign air carrier using a security program under 49 CFR § 1546.
   23
      49 CFR § 1560.103.

www.oig.dhs.gov                                        10                                              OIG-12-94
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


              recommended by the 9/11 Commission and required by the Intelligence Reform
              and Terrorism Prevention Act of 2004, TSA “may use ‘the larger set of watch lists
              maintained by the Federal government’ when warranted by security
              considerations.” 24 Based on TSA’s matching results, Secure Flight instructs the
              covered aircraft operator in its BPPR to (1) process the individual in the normal
              manner; (2) identify the individual for additional screening at a security
              checkpoint; or (3) deny the individual boarding or authorization to enter a U.S.
              airport’s sterile area.




                     Secure Flight now screens all TSDB records that have full name and date of
              birth that are not already on the No Fly or Selectee Lists. These records compose
              the Expanded Selectee List; however, the Expanded Selectee List does not
              represent an official subset of the TSDB.

              Secure Flight Program Organization

              During our fieldwork, the Secure Flight program was positioned within TSA’s
              Transportation Threat Assessment and Credentialing (TTAC). TTAC was the lead
              for all security threat assessments and credentialing initiatives for transportation
              industry workers, individuals seeking access to critical infrastructure, and
              domestic passengers. After our fieldwork ended in October 2011, TSA’s
              realignment of headquarters functions merged TTAC vetting operations with its
              Office of Intelligence (OI) to form the new TSA Office of Intelligence and Analysis.

              Within TTAC, Secure Flight was organized into the Secure Flight Operations
              Center (SOC) and Secure Flight program. The SOC was managed by the TTAC
              Vetting, Adjudication, and Redress program, and the Secure Flight program was
              under the TTAC Program Enrollment and Services Office. TTAC Technology
              managed the information technology support for TTAC, which included Secure
              Flight.


   24
        Secure Flight Program; Final Rule, 73 Fed. Reg. 64018, 64019.

www.oig.dhs.gov                                          11                                 OIG-12-94
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Secure Flight Operations Center

           For the Secure Flight program, the SOC reviews and resolves potential watch list
           matches and answers general aircraft operator questions. Secure Flight has an
           Operations Support Desk to handle technical issues related to aircraft operators
           and internal Secure Flight operations. The Operations Support Desk provides
           aircraft operators, internal customers, and partners, such as the TSC and CBP,
           with a single point of contact and control for the resolution of technical incidents
           and problems.

           Secure Flight’s SOC has redundant operations in the Annapolis Junction
           Operations Center in Maryland and the Colorado Springs Operations Center in
           Colorado. The SOC operates 24 hours a day, 365 days a year. Centers are
           staffed with Government employees and contractors who serve as Customer
           Support Agents (CSAs), Secure Flight Analysts (SFAs), TSA OI Analysts, and Watch
           Managers. CSAs handle all initial calls received by the SOC, whether related to
           passenger resolution, customer support, or technical assistance. SFAs are
           responsible for matching SFPD to watch list records. TSA OI analysts are
           colocated with the SFAs and conduct threat and intelligence analysis, while
           assisting with the matching process. Watch Managers oversee both SOC
           locations to ensure that operations are performed properly and issues are
           addressed efficiently, effectively, and timely.

           SOC employees are required to complete Secure Flight programmatic and
           operational training and on-the-job training. Programmatic training ensures that
           the workforces’ knowledge aligns with program policies, procedures, and
           standards, while also improving critical competencies as defined by Secure Flight
           leadership. Examples of programmatic training include Introduction to the
           Aviation Industry and Secure Flight 101 courses. Operational training maintains
           and improves the readiness of employees and processes within the SOC.
           Examples of operational training include call handling and cultural naming
           courses to aid SOC employees with understanding various naming conventions
           and determining gender.

           On-the-job training covers additional job-specific tasks and reinforces critical job-
           specific skills that are not fully covered in the programmatic or operational

www.oig.dhs.gov                                 12                                        OIG-12-94
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           training. Employees are provided with a role-specific training checklist and are
           assigned to a trainer. Role-specific training checklists contain those job and
           mission-critical skills that the trainee is required to know and in which the
           trainee is required to demonstrate proficiency before being allowed to work
           unsupervised on Secure Flight systems.

           Watch Managers are required to complete CSA and SFA certification, as well as
           Watch Manager training, as they may have to perform these duties at any time.
           Watch Managers complete their initial training at Annapolis Junction and finish
           their certification at their respective SOC.

           Secure Flight Program Organization

           The Secure Flight program consists of the following key offices: Business
           Architecture, Process, and Planning; Privacy; Industry Performance and Analysis;
           Change Management; and Program Management. In addition, TTAC Technology
           serves an important role in supporting Secure Flight systems.

           Business Architecture, Process, and Planning

           This office focuses on system transmissions, reengineering processes, and
           managing relationships with external offices within and outside of DHS, with the
           exception of the aircraft operators. The office is organized into three teams.

                  •	 Team 1: Works on issues related to receiving the watch list data, watch
                     list matching, and Secure Flight responses to aircraft operators.

                  •	 Team 2: Works with scheduling Secure Flight system releases and
                     requirements, production issues, and reports, such as those related to
                     SFPD.

                  •	 Team 3: Works on security requirements and coordinates with CBP to
                     ensure that technical and operational information is exchanged. These
                     areas include testing aircraft operator SFPD transmissions, system
                     outages, new requirements, and configuration changes.


www.oig.dhs.gov                                  13	                                     OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Team personnel have additional responsibilities, such as project management for
           new system requirements, which can include defining system changes, conducting
           weekly meetings, or facilitating external partner collaboration and coordination.

           The office also facilitates the Match Review Board and Match Review Working
           Group, which review the watch list matching process and identify ways to reduce
           “false positive” rates during passenger prescreening. A false positive is a
           passenger incorrectly identified as a potential match to an entry in the watch list.
           The Match Review Board and Match Review Working Group are quality control
           measures used by the Secure Flight program to ensure that the overall system
           performance is accurate and timely. Both provide a forum for regular review of
           Secure Flight match review procedures, to take corrective action or make
           recommendations for changes. They also review system-generated matching
           results regularly to identify problem areas or possible improvements, and
           provide those results to the Secure Flight program and TSA senior leadership for
           consideration.

           Privacy Office

           This office has helped to develop and implement a comprehensive privacy
           program to protect passenger personally identifiable information provided by
           aircraft operators. The Secure Flight privacy program aligns with TSA privacy
           principles, complies with industry best practices, and provides a defined redress
           process.

           Industry Performance and Analysis

           This office is composed of the Compliance Monitoring, Industry Performance,
           and Reporting and Analysis Groups. When the office is informed of a compliance
           issue, the Compliance Monitoring Group analyzes the issue and forwards a
           compliance package to TSA’s Office of Security Operations or Office of Global
           Strategies to determine whether an investigation needs to be initiated. Airline
           Implementation Managers (AIMs) within the Industry Performance section liaise
           with aircraft operators on a daily basis to assist with issues, as needed.
           Reporting and Analysis is responsible for taking data from the SOC and creating


www.oig.dhs.gov                                14                                        OIG-12-94
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


            reports, such as individual aircraft operator performance or response times, for
            the Secure Flight system.

            TTAC Technology

            This office develops information technology systems and maintains and operates
            all TTAC systems. TTAC Technology officials said that 70% of their work, which
            includes testing and deploying changes, involves the Secure Flight system.

            Aircraft Operator Secure Flight Implementation Process

            To allow watch list matching and admissibility determinations to be made before
            a flight departs to or from the United States, aircraft operators must be able to
            submit SFPD electronically to Secure Flight, and must also electronically submit
            passenger manifest information to CBP’s Advance Passenger Information
            System. 25 The Advance Passenger Information System is an electronic data
            interchange system approved by CBP for air and vessel carrier transmissions of
            electronic passenger, non-crewmember (such as an animal handler on a cargo
            plane), and crewmember manifest data. The system processes biographical data
            from travelers, allowing it to be checked against law enforcement databases and
            watch lists. The Secure Flight final rule allowed for a phased implementation, in
            which TSA first assumed watch list matching responsibility for domestic flights.
            During this interim period, CBP prescreened international passengers against
            watch list systems and data subsets through the Advance Passenger Information
            System until Secure Flight was ready to begin watch list matching for all
            domestic and international passengers. CBP continues to screen international
            manifests through the Advance Passenger Information System.

            To transmit data to DHS for both the Advance Passenger Information System and
            Secure Flight, aircraft operators must connect to and submit passenger data
            through a single DHS portal. This portal allowed DHS to integrate the watch list

   25
     Aircraft manifests are lists of all passengers and crew on board a flight. Manifest information includes
   the full name, date of birth, gender, citizenship, country of residence, status on board the aircraft (i.e.,
   passenger or crew member), DHS-approved travel document type, travel document number, travel
   document country of issuance, travel document expiration date, alien registration number (if applicable),
   and address while in the United States.

www.oig.dhs.gov                                         15                                               OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           matching component of Secure Flight into the Advance Passenger Information
           System, thus streamlining the transmission of passenger information by aircraft
           operators.

           Transition to Secure Flight and System Test Phases

           Transitioning aircraft operators to implement Secure Flight has been a complex
           process of training, technical adjustments, and system testing, which continues,
           on a limited basis, for new aircraft operators. As a result, Secure Flight provides
           orientation training, technical support by phone, job aids, and training materials,
           as well as simulations to help aircraft operators comply with program
           requirements. Each aircraft operator designates an implementation point of
           contact, who communicates with Secure Flight AIMs and deployment teams.
           Teams include technical representatives who assist aircraft operators in
           completing required testing phases.

           Secure Flight conducts testing in four phases: (1) aircraft operator internal
           system; (2) connectivity; (3) system-to-system interface; and (4) follow-on.
           Because aircraft operators are not required to update their existing systems to
           connect to Secure Flight, and because some systems are older, the process of
           transmitting and receiving data between older and newer systems is complex.
           As a result, system-to-system interface testing is an important phase. During this
           phase, aircraft operators are given data sets to transmit to Secure Flight through
           a test environment to ensure that all data are sent and can be read by the
           system, and that aircraft operators receive a proper BPPR from Secure Flight in
           return. During system-to-system interface testing and later through reporting
           tools, Secure Flight tests to ensure that it is receiving full passenger data.

           Once aircraft operators complete a full range of system and operational testing,
           they can begin applying Secure Flight BPPR, which is referred to as the cutover.
           The first aircraft operator “domestic cutover” occurred on January 27, 2009.
           However, the first major aircraft operator domestic cutover occurred on
           November 5, 2009. Domestic carrier cutover was completed on June 22, 2010,
           and foreign carrier cutover was completed on November 23, 2010.



www.oig.dhs.gov                                16                                       OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           For aircraft operators with manual reservation systems, Secure Flight has an
           alternative to the DHS portal: a web application system called eSecure Flight.
           The system uses a secure user verification process to accept manually entered
           passenger information. Because the data for each passenger must be typed into
           the system, larger aircraft operators have generally modified their reservation
           and departure control systems to avoid manual data entry. As a result, eSecure
           Flight is typically used by smaller aircraft operators that have reservation
           systems with low volume. During our fieldwork, Secure Flight program officials
           said that 32 aircraft operators had cutover to eSecure Flight.

           Secure Flight Program Partners

           In addition to continuing partnerships with aircraft operators, the Secure Flight
           program collaborates and communicates with various DHS components and
           external departments and agencies that interact with aircraft operators or are
           involved in passenger prescreening and vetting.

           Passenger Prescreening and Vetting

           The TSC, for example, provides Secure Flight with an export of TSDB watch list
           records for passenger prescreening. Secure Flight receives TSDB watch list
           updates                                             and may receive expedited 

           list updates at any time. The TSC has been working with CBP and TSA’s Secure
           Flight program to implement the Department’s Watch List Service (WLS), which
           will provide DHS with real-time access to continuously updated TSDB watch list
           records. Secure Flight uses these records to assess, vet, and determine potential
           passenger matches, which it forwards to the TSC for review and, as necessary,
           final identity match determination. Secure Flight can identify matches, but only
           the TSC has the authority to make final identity match determinations.

           TSA OI analysts are colocated at both SOC locations, and provide subject matter
           expertise to SFAs to assist in confirming potential passenger matches to TSDB
           watch list records. When matches are identified, TSA OI analysts at Secure Flight
           contact the TSC for determinations on whether passenger matches are positive
           matches to TSDB watch list records. Once a determination is made, TSA OI


www.oig.dhs.gov                                17                                       OIG-12-94
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


            communicates this information to the Intelligence Community and the TSA
            Freedom Center to execute operational response to the match.26

            DHS TRIP is a multiagency effort designed to provide fair and timely redress, or
            remedy, to travelers who have difficulties with Federal Government screening
            and border crossing processes. DHS TRIP is the Federal Government’s one-stop
            traveler redress process for coordinating the review, adjudication, and response
            to traveler redress requests. All travelers who apply through DHS TRIP receive a
            redress number. However, as DHS TRIP adjudicates all redress cases, only
            travelers who are not matches to TSDB watch list records are added to the DHS
            TRIP Cleared List. When purchasing tickets, all passengers may enter their
            redress number, but only passengers with redress numbers that match the DHS
            TRIP Cleared List are automatically cleared by the Secure Flight system. This
            process helps to prevent terrorists from determining their watch list status, even
            though they have a redress number. DHS TRIP provides                            and
            then the list is provided to Secure Flight. DHS TRIP program officials said that
            they work with Secure Flight on traveler complaints.

            CBP, through its National Targeting Center–Passenger, also screens international
            passengers. While Secure Flight screens all domestic and international
            passengers for matches against relevant TSDB watch list records, CBP screens all
            international passenger data for admissibility through several systems, including
            the Automated Targeting System–Passenger. The Automated Targeting System–
            Passenger develops risk assessments for each traveler based on rule sets that
            pertain to specific operational, tactical, or local enforcement objectives. The
            Automated Targeting System–Passenger provides records of passengers who
            have met the risk assessment threshold to Secure Flight for prescreening.
            Secure Flight uses this list to identify travelers requiring enhanced screening
            prior to boarding an aircraft. For international inbound passengers, the Secure
            Flight data is sent to CBP where it is screened against the Electronic System for
            Travel Authorization. The Electronic System for Travel Authorization is an
            Internet-based system used to determine, in advance of travel, the eligibility of

   26
     The Freedom Center is TSA’s coordination center during security incidents and operations. The center
   plays a critical role in in-flight and checkpoint security incidents, as well as coordination for every mode of
   transportation around the country and with law enforcement and security departments and agencies.

www.oig.dhs.gov                                          18                                                OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Visa Waiver Program applicants to travel to the United States. These travelers
           must apply for and receive an approved travel authorization via the system to
           board a plane or vessel bound for the United States.

           In addition, CBP maintains the DHS Router system, which processes and converts
           aircraft operator data into SFPD for further processing by Secure Flight and CBP
           prior to retransmission to the aircraft operators. Further, CBP’s Office of
           Information and Technology (OIT) will host the WLS on its servers.

           Aircraft Operator Outreach

           The Office of Transportation Sector Network Management and the Office of
           Global Strategies implement TSA’s primary aircraft operator outreach programs,
           and often work with Secure Flight’s Industry Performance and Analysis office.
           Program officials at Transportation Sector Network Management and the Office
           of Global Strategies are policy liaisons to aircraft operators, and receive from and
           provide information to operators and trade associations regarding TSA policy or
           regulatory changes. Both offices can communicate directly with aircraft
           operators for systemic problems, such as training issues, although the Office of
           Global Strategies is the primary liaison for foreign air carriers and international
           issues.

           When SOC or Secure Flight program analysts notice irregular changes to SFPD
           information, Industry Performance and Analysis program officials create a
           compliance package. This package is forwarded to the Office of Global Strategies
           when activities involve foreign air carriers and U.S. aircraft operators operating
           in international locations. TSA’s Office of Security Operations handles
           compliance issues for domestic flights. Both Offices of Security Operations and
           Global Strategies, however, conduct investigations concerning compliance issues
           based on their respective guidelines and authorities.

           Secure Flight’s operations require coordination with the Federal Aviation
           Administration (FAA), which controls aircraft within U.S. airspace. During some
           incidents, such as a No Fly passenger transiting U.S. airspace, a Selectee
           transiting U.S. airspace without proper screening
                                TSA requests the FAA’s assistance in tracking passengers and

www.oig.dhs.gov                                19                                        OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           controlling flights. When these incidents occur, Secure Flight notifies the
           Freedom Center, which communicates directly with the FAA. The FAA then
           tracks the flight and communicates with the aircraft’s pilot-in-command to
           provide any additional instructions.

           Through collaboration and coordination with internal and external partners, the
           Secure Flight program prescreens passengers to assist TSA in enhancing aviation
           security. We reviewed the Secure Flight program to determine whether it is
           screening all appropriate persons and whether the processes for aircraft
           operators to submit passenger data and receive boarding pass instructions are
           timely and effective. We also reviewed how the Secure Flight program tests its
           screening processes for accuracy, prioritization, and timeliness, as well as how
           the program is protecting varying layers of personally identifiable and sensitive
           watch list information.

   Results of Review

              program officials monitor data transmissions to ensure that Secure Flight
   receives, prescreens, and vets all relevant passenger data. The program relies on
   aircraft operator compliance in submitting full and accurate passenger data, and SOC
   Watch Managers use their discretion to determine which issues are forwarded for
   further review or investigation.

   Since Secure Flight has assumed responsibility for passenger prescreening from aircraft
   operators, the program has provided a more consistent watch list matching process.
   This process, however, is sometimes disrupted by DHS and airline system outages,
   which may require aircraft operators to revert to alternative procedures that may
   include pre-Secure Flight watch list matching procedures and protocols. To reduce
   disruptions, Secure Flight has operation center and system redundancy. Secure Flight
   also includes privacy safeguards to protect passenger personal data and sensitive watch
   list records and information. As the Secure Flight program’s scope expands by
   developing and implementing additional initiatives, program officials should prioritize
   mission-critical elements first, and collaborate and communicate more effectively with
   relevant partners.


www.oig.dhs.gov                                20                                        OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Secure Flight Relies on Passenger- and Aircraft Operator-Submitted Data and
           Aircraft Operator Compliance To Conduct Watch List Matching

           The Secure Flight program relies on the accuracy of the information passengers
           submit during the reservation process. Aircraft operators submit this data to
           Secure Flight for watch list matching. Potential matches are manually reviewed,
           and unresolved matches require aircraft operator communication to the SOC for
           identity verification (see appendix D). According to Secure Flight program
           officials, more than 99% of passengers are cleared prior to arrival at an airport.
           Abnormalities, such as irregular changes to SFPD, are reported through a
           compliance process, but this process needs more standardization.

           How Aircraft Operators Submit Passenger Data to Secure Flight

           All passengers are required to provide their SFPD information to aircraft
           operators when making a reservation on a covered flight, and nontravelers must
           do so when they seek entry to an airport’s sterile area. A passenger who refuses
           to provide these data elements is not permitted to board an aircraft or enter a
           sterile area. Aircraft operators can receive this data from any medium a
           passenger uses to make or modify a reservation (e.g., travel agency, Internet,
           self-service kiosks, gate locations). Aircraft operators are not required to
           validate the collected data during the reservation process.

           Aircraft operators are also required to submit a passenger’s passport number,
           expiration date, and country of issuance, if available, and certain non-personally
           identifiable information used to manage SFPD messages, such as the itinerary or
           the airport code for nontravelers. An aircraft operator stores this information in
           its automated reservation system or other passenger reservation or departure
           control system.

           The aircraft operator transmits this information as an SFPD message, which can
           contain a new reservation record, modification of an existing record, or
           reservation cancellation. SFPD messages may also contain multiple passenger
           records. When the aircraft operator does not submit the passenger’s full SFPD,
           the Secure Flight system will return an error message to the aircraft operator.
           Aircraft operators do not have to submit SFPD information for reservations

www.oig.dhs.gov                                21                                       OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           canceled more than 72 hours prior to flight departure. Aircraft operators
           prioritize sending SFPD based on response time requirements and send SFPD via
           either a high-priority or low-priority queue. Data transmitted within 72 hours of
           departure are considered to be low priority, and data transmitted within 24
           hours are considered high priority.

           Although most aircraft operators use computerized reservation systems to store,
           retrieve, and submit passenger




           Secure Flight Vets Passenger Data Through an Automated Matching System

           Secure Flight’s watch list matching program is responsible for prescreening an
           average 2 million passengers every day. The program was implemented to
           enhance commercial air travel security, while providing an improved and
           consistent watch list matching system across all aircraft operators. Prior to
           Secure Flight implementation, TSA conducted a benchmark test to compare
           aircraft operator watch list matching rates to the initial Secure Flight automated
           matching system rates. TSA created        variations of names on the No Fly List
           and had aircraft operators and Secure Flight attempt to match them through
           their systems. The benchmark test determined that the average aircraft
           operator match rate was                     aircraft operators tested, the operator
           that performed the best matched         of name variants, the worst matched
                 and Secure Flight matched        Secure Flight continually seeks to improve
           its vetting system and processes to achieve a 100% matching rate.

           SFPD information is vetted through the Secure Flight automated matching
           system. This system performs automated matching of SFPD to various lists,

www.oig.dhs.gov                                22                                       OIG-12-94
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


            including the No Fly, Selectee, and Expanded Selectee Lists, as well as the DHS
            TRIP Cleared List, CBP’s Automated Targeting System–Passengers List, and the
            Centers for Disease Control and Prevention Do Not Board List. 27 An
            overwhelming majority of SFPD information is automatically cleared by the
            system, with an average 8.67-second system response time for low-priority
            records and 2.01-second average for high-priority records.

            The Secure Flight automated matching system assigns a percentage score to
            each record, indicating the confidence level of a match between the passenger
            and the watch list entry. An exact match between SFPD information and watch
            list data elements produces a 100% match score; as the difference in data
            elements increases, the match score decreases. Scores must meet a minimum
            threshold to be considered a potential match and forwarded to an SFA for
            manual review;




                                                which resulted in additional work.
            Increasing the threshold enables the Secure Flight program to vet more
            efficiently.

            A cleared BPPR is transmitted from Secure Flight to aircraft operators when an
            individual’s score is below the threshold, or is a potential match but is also a
            match to the DHS TRIP Cleared List. An automated Selectee BPPR is transmitted
            for any individual matching the Expanded Selectee List, the Automated Targeting
            System–Passengers List, or any passenger randomly selected for enhanced
            screening. For SFPD information that is a potential match to the No Fly,
            Selectee, or Do Not Board Lists, an inhibited BPPR response is returned to the
            aircraft operator and the SFPD is forwarded to an SFA for manual review.




   27
     The Do Not Board List consists of individuals who pose a significant health risk to other travelers and are
   not allowed to fly.

www.oig.dhs.gov                                         23                                               OIG-12-94
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           In addition to matching original SFPD information, Secure Flight rematches SFPD

           submitted with qualified updates. An example of a qualified update is a change

           in any part of a passenger name or date of birth. Also, when records




           Potential Watch List Matches Are Sent to SFAs for Manual Match Review

           SFPD matches to watch list records are updated and viewed electronically in the
           Secure Flight User Interface system, which prioritizes inhibited SFPD information
           in a queue according to flight departure times. SFAs log into and retrieve SFPD
           information through the Secure Flight User Interface queue to manually match
           passenger data against watch list records. SFAs use the automated matching
           result, passenger matching history, and the No Fly, Selectee, and DHS TRIP
           Cleared Lists as well as searches in TIDE Online and TECS for additional details, to
           discern whether the SFPD information is a match to the watch list record. SOC
           personnel retrieve records from the same Secure Flight User Interface queue, so
           a record is sent to the next available SFA regardless of the SFA’s location.

           SOC officials said the training                  is helpful in conducting these
           searches, as SFAs can identify various
                             The Secure Flight system also applies a number of techniques to
           reduce false

                                                                           SFAs are expected
           to vet a minimum                         While this is not a requirement, such a
           measure is difficult to use when assessing an SFA’s performance




www.oig.dhs.gov                                 24                                       OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


                                                                                SOC officials 

           said this system change has resulted in reduced vetting times.

           When an SFA is able to determine that SFPD information is not a match, a
           cleared BPPR is sent to the aircraft operator. When an SFA determines that a
           passenger is a match to the Selectee List, the SFA inhibits the record and
           contacts a TSA OI analyst, who prepares a preliminary Selectee notification
           report to alert the Intelligence Community and internal TSA organizations. When
           an SFA determines that a passenger is a match to the No Fly or Do Not Board
           List, the SFA retains the inhibited BPPR and contacts a TSA OI analyst, who
           generates a preliminary No Fly notification report. These preliminary
           notification reports allow Federal entities to coordinate coverage at airports and
           on aircraft, as necessary.

           When an SFA cannot determine conclusively whether the passenger is a match
           to the No Fly, Selectee, or Do Not Board Lists using existing resources, the SFA
           retains the inhibited status and marks the record for further review. Through
           the resolution process, the aircraft operator will verify the passenger’s
           identification to update the SFPD information and call the SOC should the
           passenger remain inhibited.

           Aircraft Operators Call the SOC To Resolve Inhibited Passengers

           An aircraft operator cannot print a passenger’s boarding pass until it receives the
           appropriate BPPR from Secure Flight. When an aircraft operator receives an
           inhibited status, it must ask the passenger to provide a verifying identity
           document (VID) in person at the airport. A VID is an unexpired form of
           government-issued identification displaying the individual’s full name, photo,
           and date of birth. An aircraft operator agent collects, verifies, and corrects,
           when necessary, the SFPD in the system using the information from the VID.
           After comparing the data, the agent updates the information as necessary and
           sends an updated SFPD submission to Secure Flight for re-matching, which is
           conducted in near real time. When the re-matching determines that the
           passenger is not a match, a cleared BPPR is sent to the aircraft operator. When
           the BPPR remains inhibited, the aircraft operator agent must call the SOC for
           resolution.

www.oig.dhs.gov                                25                                       OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           CSAs at the SOC receive resolution calls and authenticate a caller by collecting
           aircraft operator and airport codes. CSAs ask a series of questions to confirm
           that the aircraft operator has requested a VID and submitted any updates to
           Secure Flight. When the aircraft operator agent has not done so, CSAs explain
           the VID process. When the VID process has been completed, CSAs may ask, in
           coordination with SFAs, for additional information about the passenger,
           including the passenger’s driver’s license or passport number or a physical
           description.
                                     CSAs enter this information into the Secure Flight User
           Interface and send the records to SFAs for matching. 


           SFAs use the additional information to vet potential matches and transmit the 

           appropriate BPPR.


           When a passenger appears to be a match to the No Fly or Do Not Board Lists, the
           current inhibited status is retained.

           For positive matches, the SFA then notifies a TSA OI analyst, who generates an
           updated notification report and assists in resolution. TSA OI analysts have access
           to additional databases beyond TIDE Online and TECS that SFAs do not access.
           TSA OI analysts also work with the TSC to obtain a Final Identity Match
           Determination.

           Secure Flight Is Addressing Challenges, But Some Vulnerabilities Remain

           Federal Government and private sector partners recognize Secure Flight’s value
           and have seen improvements since its initial implementation and cutover.
           Secure Flight has worked to address new and existing challenges, though some
           vulnerabilities remain.

           The majority of aircraft operators we interviewed note a decrease in the average
           resolution call time since Secure Flight’s implementation. The average call
           response time for FY 2011 was 7 seconds with most resolution calls lasting 2 to 8
           minutes, but a CSA will stay on a call as long as necessary to resolve any issues.



www.oig.dhs.gov                                26                                      OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           One frustration aircraft operators voiced, however, is that when a transmitted
           BPPR is inhibited, they may spend 30 minutes or more on a resolution call, even
           though the CSA says the passenger is cleared. For example, this may occur when
           an original BPPR is initially marked inhibited but subsequently cleared, and then
           the passenger changes to an earlier flight. In this example, the BPPR requires
           revetting, during which the BPPR reverts to inhibited. Aircraft operator
           representatives said this occurs more during irregular operations, such as
           inclement weather events, when more passengers change flights. Some aircraft
           operators have overridden these inhibited BPPRs and printed a cleared boarding
           pass to keep passengers from missing flights.

           Some aircraft operators we interviewed that experience this problem are told
           that it occurs because the inhibited record is delayed in the Secure Flight User
           Interface queue. Although Secure Flight officials said that this does not occur
           often, these inhibited BPPRs should be handled through the high-priority queue
           and therefore resolved quickly. In addition, an aircraft operator’s ability to
           override inhibited BPPRs raises concern that some inhibited passengers are not
           being handled appropriately.

           Recommendations

           We recommend that the Director of the Secure Flight program:

           Recommendation #1:

           Identify how and when aircraft operators override an inhibited boarding pass
           printing result and implement corrective action to eliminate unauthorized
           overrides by aircraft operators.

           Recommendation #2:

           Ensure that aircraft operators prioritize Secure Flight passenger data
           appropriately and receive an accurate, updated boarding pass printing result
           when aircraft operators submit changes.



www.oig.dhs.gov                               27                                       OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Management Comments and OIG Analysis

           We evaluated TSA’s written comments and have made changes to the report
           where we deemed appropriate. A summary of TSA’s written response to the
           report recommendations and our analysis of the response follows each
           recommendation. A copy of TSA’s response, in its entirety, is included as
           appendix C.

           In addition, we received technical comments from TSA, CBP, and DHS’ Office of
           Policy, as well as the FBI, and incorporated these comments into the report
           where appropriate. We also solicited comments from the FAA; however, the
           FAA did not have any technical changes to the draft report. TSA concurred with
           two recommendations and did not concur with two recommendations in the
           report. We appreciate the comments and contributions made by each entity.

           Management Response: TSA officials concurred with Recommendation 1. In its
           response, TSA said that Secure Flight has always taken steps to identify how and
           when aircraft operators inappropriately override boarding pass printing results.
           When Secure Flight is able to identify cases of aircraft operators inappropriately
           overriding results, TSA takes steps to ensure that screening is performed, and to
           launch compliance investigations or responses. TSA said that it has been
           performing these actions since Secure Flight’s operational start-up on
           January 27, 2009, and considers action complete on this recommendation.

           OIG Analysis: We consider TSA’s actions responsive to the intent of
           Recommendation 1, which is resolved and open. This recommendation will
           remain open pending the receipt of documentation demonstrating corrective
           actions taken and planned to eliminate unauthorized overrides by aircraft
           operators.

           Management Response: TSA did not concur with Recommendation 2. In its
           response, TSA said that Secure Flight has provided prioritization queues for the
           aircraft operators’ use since the inception of operations in 2009. It is, and has
           been, the obligation of the aircraft operators to submit passenger data to the
           appropriate (high or low) priority queue. This is, and has been, specified in


www.oig.dhs.gov                                28                                       OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           guidance documentation provided to aircraft operators and is tested and
           operationally checked by Secure Flight.

           TSA considers this to be an effective and efficient process to ensure the
           prioritization of passenger data and that Secure Flight is providing accurate and
           updated boarding pass printing results when aircraft operators submit changes
           to Secure Flight.

           OIG Analysis: Although TSA did not concur with this recommendation, we
           consider the actions responsive to the intent of Recommendation 2, which is
           resolved and open. While TSA has provided guidance to aircraft operators on
           the submission of passenger data to the appropriate priority queue, issues were
           reported to us concerning aircraft operators’ prioritization of records and receipt
           of accurate boarding pass printing instructions. This recommendation will
           remain open pending our receipt of information evidencing Secure Flight’s
           collaboration with aircraft operators to (1) identify and remedy issues relating to
           the submission of data to the appropriate priority queue, and (2) identify and
           resolve inaccurate boarding pass printing results that aircraft operators receive
           following submitted changes.

           Inhibited Boarding Pass Records Are Monitored To Ensure Aircraft Operator
           Compliance

           Secure Flight does not know when an aircraft operator or passenger prints a
           boarding pass. However, because the program conducts automated and manual
           matching at least 24 hours prior to a flight’s departure, SOC Watch Managers
           track inhibited records to ensure that aircraft operators complete the resolution
           process. To address this challenge, the SOC compiles a daily list of all the
           scheduled inhibited passengers and their itinerary information. The Watch
           Managers contact aircraft operators 30 to 45 minutes prior to flight departure
           for a status update when a scheduled inhibited passenger has not been resolved.
           When an inhibited passenger has incorrectly received a cleared boarding pass or
           has otherwise gained access to the sterile area or an aircraft, the SOC




www.oig.dhs.gov                                29                                       OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security




                      has been successful and has not resulted in an increase in resolution
           calls or unfavorable comments from aircraft operators.

           Aircraft Operators Are Adapting to Secure Flight Processes, But Concerns Remain
           Over the Accuracy of Passenger-Submitted Data

           According to Secure Flight, the SOC receives an average of 114 calls daily and
           manually reviews an average of 39,279 SFPDs each week. As more than 200
           aircraft operators are cutover to Secure Flight and approximately 2 million
           passengers fly each day, agents may not be handling inhibited passengers as
           often, and the VID and resolution processes are different from pre-Secure Flight
           aircraft operator operating procedures. In cutting over to Secure Flight, aircraft
           operator personnel needed to learn new processes and terminology, and had to
           adjust their systems to reflect these changes. In addition, more than 140
           international aircraft operators are submitting SFPD information, and some
           communications between agents and the SOC present challenges.



                          For example, one aircraft operator noted




                                                                                     This
           was confirmed in various Secure Flight incident reports.



www.oig.dhs.gov                                30                                       OIG-12-94
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


            Secure Flight Is One Aspect of TSA’s Multilayered Security Approach

            Although these vulnerabilities exist, TSA uses a multilayered approach to ensure
            the overall security of the traveling public and the Nation’s transportation
            system (see figure 1). For example, Travel Document Checkers are specially
            trained TSA Transportation Security Officers who verify boarding passes and
            identification documents at airport checkpoints before allowing a traveler or
            nontraveler access to an airport’s sterile area. On aircraft, Federal Air Marshals28
            and Federal Flight Deck Officers29 provide another security layer. In addition to
            Secure Flight prescreening efforts, CBP’s National Targeting Center–Passenger
            provides passenger vetting for international flights.



                                                              These partners work together to serve the

            larger mission of aviation security.

            Figure 1 illustrates that an individual would have to overcome multiple security
            layers, irrespective of the path used, to breach aviation security; paths are
            represented by vertical dotted lines.




   28
      Federal Air Marshals blend in with passengers and rely on their training, including investigative
   techniques, criminal terrorist behavior recognition, firearms proficiency, aircraft-specific tactics, and close
   quarters self-defense measures, to protect the flying public.
   29
      Under this program, eligible flight crewmembers are authorized by TSA’s Office of Law
   Enforcement/Federal Air Marshal Service to use firearms to defend against an act of criminal violence or air
   piracy attempting to gain control of an aircraft. A flight deck crewmember may be a pilot, flight engineer, or
   navigator assigned to the flight.

www.oig.dhs.gov                                          31                                                OIG-12-94
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security

              Figure 1: TSA Multilayered Security Approach 30




              Source: TSA.


   30
        Visible Intermodal Prevention and Response (VIPR) teams augment security at key transportation

www.oig.dhs.gov                                        32                                                OIG-12-94
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           Although SOC Personnel Use Discretion When Reporting Incidents, No Formal
           Compliance Standards Exist

           Secure Flight officials monitor aircraft operator SFPD submissions for quality and
           compliance, and recommend corrective action when necessary. Most
           compliance issues are discovered by SOC personnel during daily operations with
           regular monitoring of inhibited passenger BPPR and personnel reporting
           abnormalities. 




           When aircraft operator issues occur, Watch Managers determine whether to
           compile a compliance package and forward it for review and investigation.
           Watch Managers use the Secure Flight final rule and the Consolidated User
           Guide as guidelines in making these determinations. The Consolidated User
           Guide provides technical and operational guidance and requirements to comply
           with the Advance Passenger Information System Pre-Departure final rule and the
           Secure Flight final rule, respectively.

           According to Secure Flight officials, although Watch Managers have no written
           guidance concerning compliance issues, managers know what is expected of
           aircraft operators. When Watch Managers suspect a compliance issue, they
           collect all relevant documentation, such as call logs and Secure Flight User
           Interface screenshots, and forward the information via email to the Secure
           Flight’s Industry Performance and Analysis Compliance Group. As of October
           2011, the SOC was updating its notification process with automated forms.

           The Industry Performance and Analysis Compliance Group analyzes the potential
           compliance issue and forwards the results to TSA’s Offices of Security Operations
           or Global Strategies. These two entities then determine whether to initiate an
           investigation. The Industry Performance and Analysis Compliance Group



   facilities in urban areas around the country. Teams work with local security and law enforcement officials
   to supplement existing resources, provide deterrent presence and detection capabilities, and introduce an
   element of unpredictably to disrupt potential terrorist planning activities.

www.oig.dhs.gov                                       33                                              OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           monitors the investigations and compiles a report that provides an update on
           closed investigations to the SOC.

           The Office of Security Operations’ Compliance Programs conducts investigations
           for both domestic aircraft operators and foreign air carriers at domestic
           locations. When Compliance Programs receives a specific incident report, it
           conducts a preliminary investigation to determine whether to initiate a full
           investigation. When the investigation results in a compliance violation,
           Compliance Programs mails a letter of investigation requiring the aircraft
           operator to devise and offer a corrective action plan. Domestic aircraft
           operators have 20 days to respond to the letter, and foreign air carriers have 30
           days to respond. The Office of Security Operations also conducts Special
           Emphasis Inspections to determine compliance. These are routine tests in which

                        the No Fly and Selectee Lists.

           Compliance Programs uses a progressive enforcement method as defined in its
           Inspection and Enforcement Manual. Penalties usually begin with a letter of
           warning or administrative action, followed by fines, which are capped at
           $27,500. Once the compliance investigation is finished, recommendations are
           entered into a compliance system, which is accessed by TSA’s Office of Chief
           Counsel. The Office of Chief Counsel gives the aircraft operators the opportunity
           to pay immediately, have an informal conference, or defer the action to an
           Administrative Law Judge.

           The Office of Global Strategies deals strictly with aircraft operators overseas and
           foreign governments. Its authority includes international flights that depart for
           the United States and international flights that transit and overfly U.S. airspace.
           The compliance process begins when the Office of Global Strategies receives a
           compliance package from Secure Flight concerning a possible aircraft operator
           violation. The results are forwarded to the responsible Regional Operations
           Center within the Office of Global Strategies’ Global Compliance Division, which
           conducts the investigation. Additionally, an International Industry
           Representative within the Office of Global Policy and Engagement conducts
           outreach to the aircraft operators and requests more information on what
           occurred. These results are also forwarded to the Global Compliance Division.

www.oig.dhs.gov                                34                                        OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Office of Global Strategies officials said that the number of compliance packages
           has decreased as aircraft operators become more comfortable with the Secure
           Flight system and processes.

           Although compliance issues have declined since aircraft operators cutover,
           Secure Flight needs defined thresholds when making compliance
           determinations. Without defined compliance thresholds, it is difficult to ensure
           that Secure Flight identifies and forwards all appropriate compliance issues.

           Recommendation

           We recommend that the Director of the Secure Flight program, in coordination
           with the Office of Security Operations Compliance Programs and Office of Global
           Strategies:

           Recommendation #3:

           Establish formal guidance that clearly defines Secure Flight program processes
           for reporting aircraft operator compliance issues to the Office of Security
           Operations and Office of Global Strategies.

           Management Comments and OIG Analysis

           Management Comments: TSA officials concurred with Recommendation 3. In
           its response, TSA said that Secure Flight has processes in place for reporting
           potential compliance issues to the TSA Office of Security Operations and Office
           of Global Strategies. In December 2011, Secure Flight organized a meeting with
           these offices to discuss how best to coordinate compliance issues and share
           information that is mutually beneficial to all three offices. TSA said that Secure
           Flight is currently working to schedule follow-up meetings with both offices in
           the near future to formalize the process.

           OIG Analysis: We consider TSA’s actions responsive to the intent of
           Recommendation 3, which is resolved and open. The recommendation will
           remain open pending our receipt of formalized standard operating procedures


www.oig.dhs.gov                                35                                       OIG-12-94
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           that establish clear processes for when and how to report aircraft operator
           compliance issues.

           Secure Flight Relies on the Availability of the DHS Router, But Some Disruptions
           Occur

           Because Secure Flight program operations are transactional, it is imperative that
           aircraft operators, the DHS Router, and Secure Flight maintain connectivity.
           Secure Flight alerts aircraft operators of upcoming routine maintenance and
           provides specific instructions for reporting any disruptions or connectivity issues.
           During disruptions, aircraft operators continue to operate by using one of six
           alternative options approved by Secure Flight. The frequency, duration, and
           monitoring of DHS Router disruptions are important to understanding potential
           vulnerabilities to the Federal Government’s watch list matching efforts.

           Secure Flight Notifies Aircraft Operators of System Maintenance

           When CBP OIT conducts routine maintenance on the DHS router, CBP officials
           alert Secure Flight, which in turn informs aircraft operators. Secure Flight also
           notifies aircraft operators when it schedules maintenance to the automated
           matching system or to the Secure Flight test environment. These notifications
           provide aircraft operators with situational awareness in case any difficulties
           arise.

           During Disruptions, TSA and CBP Work To Identify the Source

           When disruptions occur, aircraft operators are typically the first to notice and
           initiate a reporting sequence as required in the Consolidated User Guide. Each
           aircraft operator has a designated point of contact who is instructed to call the
           SOC immediately after noticing a disruption in service, regardless of its source.
           Upon receiving a disruption call, a CSA documents the problem and notifies the
           Watch Manager. The Watch Manager initiates a service disruption procedure
           and conference call with TSA’s Operations Support Desk to assess the situation.
           The Operations Support Desk opens a bridge call with CBP’s OIT Technology
           Service Desk to start the troubleshooting process.


www.oig.dhs.gov                                 36                                       OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           During the conference call, operational support staff assesses the situation to
           identify the problem and determine the effect of the disruption. Generally,
           there are

                                                                     Once the disruption and
           effect have been identified, a severity level is established and communicated to
           the Watch Manager. At that time, the Watch Manager sends a disruption
           notification email to provide regular updates to various TSA officials and an
           Initial Warning Order of the service disruption to affected aircraft operators. The
           Watch Manager also authorizes the affected aircraft operators to use
           alternate service disruption options.

   Aircraft Operators Have Watch List Matching Alternatives During System Disruptions

           During any type of disruption that prevents aircraft operators from receiving
           Secure Flight BPPR, aircraft operators have    alternatives to continue
           operations, described in the




www.oig.dhs.gov                                37                                       OIG-12-94
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security



                                                                                    which can 

           only be accessed by authorized aircraft operator personnel.


           Although these options are available to aircraft operators, several airline
           industry partners we spoke with said that aircraft
                                         Some officials at DHS, TSA, and the TSC discussed

                              However, aircraft operators currently use the watch list to




                                                Secure Flight officials explained, however, 

           that as a result of the TSA and CBP Chief Information Officers’ efforts to prioritize 

           the resolution                                               the relationship 

           between the two components has improved. Both components worked
           together to develop a formal procedure to isolate and resolve disruptions, and
           keep all parties informed of disruption status. Additionally, CBP OIT and Secure
           Flight have weekly management and technical meetings, and both appear
           satisfied with continuing communication improvements.

           Monitoring the DHS Router Consistently Appears Problematic




www.oig.dhs.gov                                 38                                         OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security




           The data provided by Secure Flight and CBP OIT indicate


                                                                      For example, between
           January 1 and July 31, 2011, CBP OIT reported—

                  •




           Secure Flight, however, reported




                                                        Due to the essential nature of
           information received and transmitted by the DHS Router, our office may review
           these issues at a later date.

           Secure Flight Has Full Site Redundancy and Conducts System Testing To Ensure
           Availability

           To reduce possible disruptions and ensure availability, TTAC Technology
           conducts Secure Flight system and regression testing and monitors the system

www.oig.dhs.gov                               39                                     OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           continuously. Secure Flight program officials also conduct routine tests on
           aircraft operators to confirm receipt of SFPD when system changes occur.
           Secure Flight has redundant systems and sites, which allow passenger information
           matching to continue should one site or system experience a disruption.

           TTAC Technology Conducts System Testing

           Before new releases or updates to the Secure Flight system are implemented,
           TTAC Technology conducts performance and regression testing in a simulated
           environment to ensure appropriate functionality. TTAC Technology applies a
           new system release to the test environment system to determine whether the
           release causes any errors or unnecessarily slows the system. TTAC Technology
           conducts these tests again once the release has been fully implemented to the
           automated matching system to verify that there are no adverse system effects
           that were not present in the test environment. These tests also check the
           system’s capacity to manage high-volume periods and high-priority response
           times. TTAC Technology monitors the system, including automatic linkages,
           interfaces, and network connectivity to the DHS Router, and alerts relevant
           parties when there are issues with aircraft operator connections.

           Although TTAC Technology is responsible for ensuring system availability, Secure
           Flight’s Industry Performance and Analysis office conducts routine Production
           Validation Testing of aircraft operator SFPD submissions. This replicates some of
           the testing Industry Performance and Analysis uses to test aircraft operators
           during cutover. Replication, however, validates that, despite changes to Secure
           Flight’s system and possible changes to the aircraft operator systems, Secure
           Flight is receiving data properly and receiving complete SFPD during
           transmissions.

           Secure Flight Has Site and System Redundancy

           In addition to TTAC Technology and Secure Flight program testing, Secure Flight
           operations were designed to be redundant, and to reduce the likelihood and
           duration of outages. This includes two fully redundant SOC sites and systems in
           geographically dispersed locations: Annapolis Junction, MD, and Colorado
           Springs, CO. Both operation centers have full-time personnel and servers that

www.oig.dhs.gov                               40                                       OIG-12-94
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           run simultaneously every day. Each site can handle full operations should the
           other site experience difficulties. This redundancy helps to ensure that at least
           one server is running continuously. If there is a disruption, either location
           handles all resolution calls and SFPD information vetting.

           In addition, Secure Flight has a continuity of operations plan and a continuity
           manager. During our fieldwork, continuity training was being developed and the
           continuity of operations plan was being expanded. The redundancy of Secure
           Flight’s systems and sites was tested on August 23, 2011, when a 5.8 magnitude
           earthquake affected Government operations throughout the east coast. As the
           Maryland center was evacuated, continuity officers alerted the Colorado center
           regarding the disruption. SOC and program officials confirmed that the
           automatic switching or failover to the Colorado site was executed according to
           the continuity of operations plan. The failover did not stress operations. During
           this time, additional analysts were placed on standby at the Colorado site in case
           building inspectors were unable to clear the Maryland site for operations within
           24 hours. The Maryland site remained closed from approximately 2:00 p.m. to
           11:30 p.m., and Secure Flight officials said that no disruption to passenger
           screening occurred.

           Secure Flight Has Developed Safeguards To Protect Personal Data and Watch
           List Records

           Secure Flight has developed procedures to ensure that passengers are aware of
           information requirements and how to obtain additional information regarding
           the collection and use of this data. Secure Flight has a privacy program that
           adheres to Government standards and ensures that personnel are adequately
           trained.

           Secure Flight Receives Minimal Personal Data and Limits External Requests

           Secure Flight receives the minimal passenger personal data required to conduct
           effective passenger matching against the No Fly List, Selectee List, and other
           lists. TSA also requires aircraft operators to provide a specified privacy notice on
           their websites or self-service kiosks prior to collecting passenger or nontraveler
           information. This privacy notice informs passengers of the data required to

www.oig.dhs.gov                                 41                                       OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           enter the boarding area and that this information may be shared with law
           enforcement, intelligence agencies, or others under its System of Records
           Notice. It refers passengers to the published System of Records Notice and
           Privacy Impact Assessment. The System of Records Notice specifies the
           circumstances under which Secure Flight records or information may be shared,
           for what purposes, and with whom. The Privacy Impact Assessment is used to
           identify and mitigate privacy risks of collecting, maintaining, and disseminating
           Secure Flight information. Aircraft operators must also ensure that third-party
           reservation websites provide this privacy notice prior to collecting passenger
           information.

           According to DHS officials, Secure Flight also limits personal data and information
           requests from external agencies and limits requests to those related to terrorism
           and national transportation security. When an external request is received, it
           must be reviewed by the TSA Office of Chief Counsel and TSA Office of Privacy.
           The Privacy Impact Assessment helps the public understand what personal data
           are being collected, why they are being collected, and how they will be used.
           TSA’s Privacy Office recently formalized the annual review of the Privacy Impact
           Assessment, which includes determining whether the program is still operating
           in accordance with the published Privacy Impact Assessment or whether the
           assessment requires updating. In August 2011, Secure Flight updated its Privacy
           Impact Assessment to address new initiatives, such as Known Traveler. The
           Known Traveler initiative aims to identify low-risk passengers and expedite their
           screening process.

           Secure Flight Has a Privacy Program To Protect Passenger Data and Provides
           Additional Privacy Training To Secure Flight Personnel

           In addition to these public notices, Secure Flight has developed and
           implemented a comprehensive privacy program to protect SFPD personally
           identifiable information provided by aircraft operators. According to the Secure
           Flight Concept of Operations, the privacy program meets all privacy standards
           set forth by the U.S. Government, aligns with TSA privacy principles, complies
           with industry best practices, and provides a defined redress process. The TSA
           Privacy Office has a Privacy Officer colocated with Secure Flight to ensure that


www.oig.dhs.gov                                42                                       OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           privacy is addressed in all aspects of the program, from developing initiatives to
           releasing system updates.

           Secure Flight ensures that employees receive privacy training required of all TSA
           employees as well as additional and recurrent Secure Flight privacy training. To
           manage personally identifiable information and sensitive watch list data, Secure
           Flight restricts physical access to the SOC and has user-controlled system access,
           which is based on what each person needs to know to perform his or her duties.
           Documents containing personal data or sensitive information are password
           protected when sent via email. To prevent the disclosure of personal data to
           unauthorized users, Secure Flight has an authentication process for eSecure
           Flight users and for aircraft operators placing resolution calls. The Secure Flight
           Privacy Officer conducts privacy compliance audits and an ad hoc review of
           passenger information entered into the Secure Flight User Interface. Any issues
           are reported to TSA’s Privacy Office.

           Secure Flight also follows privacy standards for retaining personally identifiable
           information and regularly purges privacy data. For example, as approved by the
           National Archives and Records Administration, the Secure Flight records
           retention schedule provides for a retention period of 7 days for individuals who
           are not a match to the Government watch list, 7 years for individuals who are a
           potential match, and 99 years for individuals who are a confirmed match. The
           Secure Flight Privacy Officer also conducts weekly purge compliance spot checks.

           Secure Flight Should Prioritize Its Mission, While Developing and Implementing
           Initiatives

           Although Secure Flight has been screening domestic and international
           commercial aircraft operator passengers for around 1 year, the program has
           taken on or participated in developing a series of new initiatives: WLS,
           overflights, risk-based security, barcode encryption on boarding passes, and a
           Joint Analysis Center. DHS Offices of Privacy and for Civil Rights and Civil
           Liberties are consulted during initiative development, as appropriate. While
           these initiatives may help to improve the efficiency and effectiveness of
           passenger prescreening, it is prudent for Secure Flight to prioritize and focus on
           its mission and mandate.

www.oig.dhs.gov                                43                                        OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Watch List Service Changes Will Enhance Secure Flight Processes, But Delays
           Exist

           During our fieldwork, Secure Flight was receiving daily updates from the TSDB,
           with urgent updates as necessary. Secure Flight began implementing a change,
           which will serve as an improved method of transmitting data from the TSC to
           Secure Flight. Secure Flight will now connect to CBP to access the WLS, a near
           real-time export of the TSDB, which will eliminate the need for a daily export to
           the SOC. When the TSC adds, modifies, or deletes data from the TSDB, the WLS
           export of the TSDB will be automatically synchronized. This change is expected
           to result in a more timely and accurate match review process, which is essential
           to Secure Flight’s operational effectiveness. Although the final WLS rollout was
           expected by spring 2011, Secure Flight delayed implementation to complete
           testing the Known Traveler program. At the end of our fieldwork, DHS officials
           estimated that the WLS changeover would be implemented in the first quarter of
           2012.

           Secure Flight Has Developed Guidelines for Overflight Implementation

           The Secure Flight final rule covers aircraft operators overflying the continental
           United States, excluding some domestic flights within Canada and Mexico that
           transit U.S. airspace. A flight not required to submit SFPD, for example, would
           include a flight from Montreal, Canada, to Halifax, Canada, although a portion of
           this flight transits U.S. airspace. During overflight requirements development,
           implementation was deferred, but a pilot test occurred on May 26, 2011, with an
           Air France flight from Paris, France, to Mexico City, Mexico. The draft overflight
           requirements were submitted to foreign air carriers for review and comment,
           and the Office of Global Strategies and Secure Flight received responses from
           August 15 to September 30, 2011. Subsequent to the completion of our
           fieldwork, TSA officials notified us that the comments have been reviewed and
           addressed, and the requirements approved by the TSA Administrator. The final
           Model Security Program was published on February 8, 2012, and foreign air
           carriers had until March 8, 2012, to comply.

           To prevent confusion on what flights are considered overflights, Secure Flight
           officials obtained data from the FAA concerning flight routes that transit

www.oig.dhs.gov                                44                                      OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           continental U.S. airspace or come within 12 nautical miles of the U.S. coastline.
           From this information, Secure Flight developed a list of airport pairs or
           combinations of departure and arrival airports. Flights between these airports
           will be considered overflights, requiring aircraft operators to submit SFPD
           information. A Secure Flight official said that airport pairs will need to be
           reviewed on a continuous basis as new flight patterns are added. In addition,
           Secure Flight officials estimate that the airport pair configuration would add
           approximately 78,000 flights per year and 20,000 passengers per day. As the
           Secure Flight program currently vets more than 2 million passengers per day, the
           additional overflight passengers are not expected to stress the system or
           analysts’ ability to perform SFPD information prescreening against the watch list.

           Implementation of overflight screening will also include procedural differences.
           For example, Secure Flight will neither inhibit nor provide foreign aircraft
           operators with notifications of passenger matches to the Do Not Board List.
           Further, Secure Flight can only recommend additional screening for passenger
           matches to the Selectee List, and foreign aircraft operators may board No Fly List
           passenger matches, but these flights must be diverted from U.S. airspace.
           During our fieldwork, Secure Flight was developing a standard operating
           procedure for reporting these instances to the FAA and TSA.

           Secure Flight Is Integrating a Risk-Based Security Approach

           TSA has also started developing a multi-phased risk-based security initiative in
           which Secure Flight will be a key facilitator of these initiatives. The concept of
           risk-based security is to develop and designate an appropriate screening level
           based on varying passenger risks. The first phase of the risk-based security
           initiative is the Known Traveler pilot, publicly referred to as Pre‫™܂‬. While
           Known Traveler helps identify low-risk passengers, TSA OI and Secure Flight are
           beginning to develop a second phase of risk-based security, which will identify a
           new category of high-risk passengers to receive additional screening.

           Known Traveler passengers could be allowed to process through airport security
           without removing their shoes or laptop computers from their carry bags. Secure
           Flight combined elements of CBP’s Global Entry program and worked with Delta
           Airlines and American Airlines to identify low-risk passengers participating in

www.oig.dhs.gov                                45                                       OIG-12-94
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           frequent flier programs, as well as participants in similar CBP programs for low-
           risk travelers to receive expedited border screening. 32

           As Known Traveler passengers are vetted, those meeting established criteria
           receive a designation in their SFPD. When Known Traveler passengers fly, their
           SFPD is still vetted through the Secure Flight system for watch list matching.
           When cleared through the automated matching system, their trusted traveler
           status is encoded into a barcode, which is decoded with special boarding pass
           scanners that Transportation Security Officers use at security checkpoints.
           Private industry partners have voiced support for the Known Traveler pilot,
           which screened 40,000 passengers in October 2011 and is expanding.

           TSA Is Developing Special Boarding Pass Scanners To Address Vulnerabilities

           Federal Government and private industry partners raised concerns that
           passengers can submit false data and present false credentials or identity
           documents to gain access to aircraft or sterile areas. To address this concern,
           TSA and Secure Flight are developing technology to use boarding pass scanners
           to help authenticate identity documents to ensure that all SFPD information
           matches the information on an individual’s identity document. This effort is
           called the Credential Authentication Technology – Boarding Pass Scanning
           Systems Initiative.

           Some of this technology is currently being used as part of the Pre‫ ™܂‬pilot. For
           the Credential Authentication Technology – Boarding Pass Scanning Systems
           Initiative, TSA and Secure Flight are working to add an encrypted data block,
           which would include a passenger’s name, date of birth, gender, screening status,
           itinerary, and a date stamp. Secure Flight plans to send an encrypted code to the
           aircraft operator to insert, but not interpret, on the boarding pass. Transportation
           Security Officers will use boarding pass scanners to verify the authenticity of the
           identification, while also verifying that the identification information matches
   32
      Global Entry, intended for frequent international travelers, allows expedited clearance for preapproved,
   low-risk travelers upon arrival in the United States. Program participants proceed to Global Entry kiosks
   at airports, present their machine-readable passport or U.S. permanent resident card, place their
   fingertips on the scanner for fingerprint verification, and make a customs declaration. All applicants
   undergo a rigorous background check and interview before enrollment.

www.oig.dhs.gov                                        46                                              OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           passenger-submitted SFPD. Existing boarding pass scanners from Pre‫ ™܂‬will
           need to be modified to decrypt the data block at the checkpoints. Secure Flight
           estimates that this capability will be ready to pilot by April 2012.

           Communication Difficulties Exist in the Development and Implementation of
           New Initiatives

           Although Federal Government and private industry partners have acknowledged
           that the Known Traveler pilot results are successful, collaboration and
           communication difficulties have persisted throughout this and other Secure
           Flight initiatives.

           Private industry officials note that communication between TSA and aircraft
           operators could be clearer and timelier during the planning stages. Confusion
           among Secure Flight, TTAC, and private industry officials persists because of the
           inconsistent program naming. For example, the Pre‫ ™܂‬program was referred to
           as Known Traveler and Trusted Traveler before it was publicly renamed Pre‫™܂‬
           just days before the pilot started. Although this program leverages elements and
           screening eligibility determinations from several CBP programs, the DHS
           Screening Coordination Office was not involved in planning or coordinating the
           program’s rollout.

           Although Secure Flight has received data from the FAA, it has not worked with
           the FAA to develop the list of airport pairs used to determine overflights. As
           Secure Flight must rely on the FAA to help monitor overflight diversions, as well
           as to continue reviewing airport pair determinations as new routes are added,
           developing a working relationship would be beneficial to both entities. In its
           written response to the draft report, TSA said that Secure Flight and the FAA
           have had an established working relationship for overflights requirements since
           2007. However, interviews with FAA officials during our review indicate that the
           FAA did not perceive the relationship as collaborative. The FAA was also
           afforded an opportunity to review and clarify language in the draft report, and
           did not suggest any changes.

           Secure Flight is also piloting and implementing a general aviation prescreening
           initiative. This initiative has been called General Aviation and the Twelve-Five

www.oig.dhs.gov                                47                                       OIG-12-94
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


              program interchangeably by Secure Flight officials. A Secure Flight official
              identified these aircraft as “unscheduled and/or private charters weighing
              12,500 pounds.” However, the updated Secure Flight Privacy Impact Assessment
              allows operators and lessors of “Twelve-Five aircraft” to use Secure Flight. These
              operators and lessors are described as “charter operators and lessors of aircraft
              with a maximum takeoff weight in excess of 12,500 pounds, and scheduled
              aircraft operators under 49 CFR 1544.101(d).” 33 Furthermore, FAA officials
              confirmed that pilots understand general aviation to specifically refer to
              unscheduled, non-hirable flights. FAA officials also said that referring
              interchangeably to the initiative as the General Aviation and Twelve-Five
              program would be confusing to aircraft operators, who understand this
              terminology to mean something different.

              Recommendation

              We recommend that the Administrator of the Transportation Security
              Administration, in coordination with the Secure Flight program:

              Recommendation #4:

              Develop a communication strategy to formalize coordination and collaboration
              with Federal Government and private industry partners to ensure clarity when
              developing and implementing new initiatives.

              Management Comments and OIG Analysis

              Management Comments: TSA officials did not concur with Recommendation 4.
              In its response, TSA said that it has already developed and implemented a
              comprehensive communication strategy to formalize coordination and
              collaboration with Federal Government and private industry partners to ensure
              clarity when developing and implementing new initiatives. Additionally, Secure
              Flight already develops and maintains stakeholder assessments for its specific
              initiatives, hosts semi-annual aviation industry conferences, and disseminates
              informational Secure Flight Updates to aircraft operators to ensure that

   33
        Privacy Impact Assessment Update for Secure Flight, August 15, 2011, p. 2.

www.oig.dhs.gov                                          48                               OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           consistent and reliable messaging is provided to Secure Flight stakeholders.
           Therefore, with respect to Secure Flight, TSA considers action for this
           recommendation complete.

           TSA noted that this recommendation is based on findings cited in the report
           regarding initiatives (i.e., Known Traveler, TSA Pre‫ )™܂‬that are TSA-wide
           initiatives under Risk-Based Security. Each of the pilot programs has a tailored
           communications strategy that evolves depending upon the results of the pilot
           program and decisions on system-wide implementation.

           OIG Analysis: Although TSA did not concur with this recommendation, we
           consider the actions responsive to the intent of Recommendation 4, which is
           resolved and open. The recommendation will remain open pending our receipt
           of TSA’s communication strategy with Federal Government partners and private
           industry partners. To address the intent of this recommendation, the
           communication strategy should include communication activities that foster a
           collaborative working relationship with Federal Government and private industry
           partners. The strategy should also outline general roles and responsibilities for
           Secure Flight when the program communicates directly with Federal
           Government and private industry partners about new initiatives.

           The Joint Analysis Center Further Examines Secure Flight Data To Identify
           Trends and Patterns

           In addition to Secure Flight’s efforts to improve the efficiency and effectiveness
           of passenger prescreening, TSA, in conjunction with Secure Flight, has developed
           the Joint Analysis Center. This center is colocated within the SOC and uses
           encounter match data to perform broader aviation security analysis. Analysts
           located at Secure Flight work jointly with TTAC and TSA OI analysts to use
           passenger vetting results from Secure Flight and other programs to identify
           trends and patterns in aviation security.

           For example, trends and patterns might include which aircraft operators or
           specific flights have the most Selectee List matches, or whether an individual on
           the Selectee List departs from a particular airport or consistently travels with
           other individuals who are a match to the watch list. This information is shared

www.oig.dhs.gov                                49                                         OIG-12-94
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           with other Federal Government partners and may be used to inform tactical
           decisions. As an example, when the Joint Analysis Center determines that a
           large number of Selectees routinely fly into or out of a particular airport, it will
           present the data to TSA leadership to drive operational decisions.

           Conclusion

           Public and private partners recognize the Secure Flight program’s value, as it has
           provided more consistent passenger prescreening.


                  it has a defined system and processes to conduct watch list matching. To 

           ensure that aircraft operators follow established procedures, the SOC monitors
           records and forwards issues for compliance investigation. However, this process
           is not standardized, and program officials send compliance packages using their
           discretion. Once Secure Flight successfully cutover aircraft operators, the
           program focus shifted toward addressing emerging threats through multiple
           initiatives. To develop and implement these initiatives effectively, Secure Flight
           must enhance its relationship and communication efforts with public and private
           partners.




www.oig.dhs.gov                                  50                                         OIG-12-94
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   We reviewed the implementation and coordination of TSA’s Secure Flight program. Our
   objectives were to determine (1) whether the program is screening all appropriate
   persons; (2) whether processes and standards for aircraft operators to submit SFPD
   information and receive BPPR instructions are timely and effective; (3) how the
   program’s screening processes are tested for accuracy, prioritization, and timeliness
   during high-volume periods; and (4) how Secure Flight is protecting varying layers of
   personally identifiable and sensitive watch list information.

   We reviewed the communication processes and capabilities between the Secure Flight
   program and aircraft operators and other relevant Government partners. We examined
   directives, policies, and procedures relating to these processes and their intended
   purpose. In addition, we reviewed relevant memorandums of agreement and
   understanding between TSA and its Government partners with a role in prescreening
   international and domestic passengers against the Federal Government’s terrorist watch
   list.

   We interviewed TSA officials from the following offices: Secure Flight program and
   operations, TTAC, OI, DHS TRIP, Office of Privacy, Transportation Sector Network
   Management, Office of Global Strategies, and Office of Security Operations. In addition,
   we met with officials from the DHS Office for Civil Rights and Civil Liberties, CBP, DHS
   Screening Coordination Office, the FAA, and the FBI. Further, we engaged airline
   industry associations and aircraft operators. This allowed us to assess the effectiveness
   of Secure Flight’s efforts, as well as the level of communication and collaboration
   between Secure Flight and its Federal Government and private sector partners in the
   passenger prescreening process.



www.oig.dhs.gov                               51                                      OIG-12-94
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   We also reviewed applicable legislation, regulations, directives, policies, operating
   procedures, and official guidance documents and manuals. In addition, we studied work
   previously performed by our office in this and associated areas, as well as the work
   conducted by the Government Accountability Office.

   We conducted this review under the authority of the Inspector General Act of 1978, as
   amended, and according to the Quality Standards for Inspections issued by the Council
   of the Inspectors General on Integrity and Efficiency.




www.oig.dhs.gov                              52                                     OIG-12-94
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix B
   Recommendations
   We recommend that the Director of the Secure Flight program:

   Recommendation #1:

   Identify how and when aircraft operators override an inhibited boarding pass printing
   result and implement corrective action to eliminate unauthorized overrides by aircraft
   operators.

   Recommendation #2:

   Ensure that aircraft operators prioritize Secure Flight passenger data appropriately and
   receive an accurate, updated boarding pass printing result when aircraft operators
   submit changes.

   We recommend that the Director of the Secure Flight program, in coordination with the
   Office of Security Operations Compliance Programs and Office of Global Strategies:

   Recommendation #3:

   Establish formal guidance that clearly defines Secure Flight program processes for
   reporting aircraft operator compliance issues to the Office of Security Operations and
   Office of Global Strategies.

   We recommend that the Administrator of the Transportation Security Administration, in
   coordination with the Secure Flight program:

   Recommendation #4:

   Develop a communication strategy to formalize coordination and collaboration with
   Federal Government and private industry partners to ensure clarity when developing
   and implementing new initiatives.



www.oig.dhs.gov                               53                                       OIG-12-94
                   OFFICE OF INSPECTOR GENERAL
                     Department of Homeland Security


   Appendix C
   Management Comments to the Draft Report




www.oig.dhs.gov                  54                    OIG-12-94
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                55                    OIG-12-94
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                56                    OIG-12-94
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                57                    OIG-12-94
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                58                    OIG-12-94
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Appendix D
   Secure Flight Passenger Prescreening Process




   Source: Secure Flight Briefing, June 2011.



www.oig.dhs.gov                                   59                    OIG-12-94
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix E
   Major Contributors to This Report
   Marcia Moxey Hodges, Chief Inspector
   McKay Smith, Senior Inspector
   Katherine Yutzey, Senior Inspector
   Amy Tomlinson, Inspector
   Heidi Einsweiler, Inspector




www.oig.dhs.gov                           60                    OIG-12-94
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix F
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Officer for Civil Rights & Civil Liberties
   Chief Privacy Officer
   Administrator, Transportation Security Administration
   Commissioner, U.S. Customs and Border Protection
   TSA Liaison
   CBP GAO/OIG Liaison

   U.S. Department of Justice

   Director, Terrorist Screening Center
   DOJ GAO/OIG Liaison

   U.S. Department of Transportation

   Administrator, Federal Aviation Administration
   DOT GAO/OIG Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch

www.oig.dhs.gov                              61                   OIG-12-94
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                            62                              OIG-12-94
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or fax it
directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
